.

20-5

No. _?; ftfl-fTW-onn/,

IN THE
SUPREME COURT OF THE UNITED STATES
Supreme Court, U.S.
FILED

SEP - h 2020
KUHTA tf- RE:r=n

— PETITIONER

OFFICE OF THE CLERK

(Your Name)
vs.
TOsX'JCJEU STATES

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

KUHIA g REDD

(Your Name)
_■ EASTERN PTSTRTCT OF NORTH- RAVffl.TWA

(Address)
RALETGB. W.P..

97611

(City, State, Zip Code)
M9) 856-4236

(Phone Number)

QUESTION(S) PRESENTED
Whether we, the Petitioner, is entitled to Belief from denial 404 motion at the District
Court level in light of the First Step Act, December 21st, 2018. Section 404 "state"
any person who was sentenced before August 3rd, 2010, is now entitled to a reduced
sentence due to the crack, cocaine calculation sshould be adjusted from 100/1 ro
18/1. Due to the nature of congress provisions of due process constitutionally
retroactive scheduled. Due to my presentence invesitgation report shows that my
case qualified for stature modification under the disaprity of crack cocaine.
Under Congress* guidelines policy 18 B.S.C. § 3553-A 28 D.S.C. § 994(f) and
§ 991(b)(1), the maximum of the guideline range cannot exceed the
by more
than 25 percent or six months correctly applied under 28 U.S.C. § 954(b)(2), also
violating the Sixth Amendment.

LIST OF PARTIES

m All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

\
)

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

DISTRICT COURT 404 PIRST STEP ACT

APPENDIX B

DENIAL IK THE DISTRICT COURT

APPENDIX C

APPEAL COURT 404 FIRSW, STEP ACT 18/1

APPENDIX D

APPEAL COURT DENIAL

APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

.

7REKMAN V- UNITED STATES
UbTCTED STATES V. BOOKER
MOLINA-MAETINEZ 7. UNITED STATES
DORSET v. UNITED STATES
RITA V. UNITED STATES

STATUTES AND RULES
EKEEMAN 7. UNITED STATES 564 U.S. 522 - 2011
UNITED STATES V. BOOKER 543 U.S. 220
MOLINA.-MASTINEZ 7. UNITED STATES 578 U.S.
DORSET 7. UNITED STATES 567 AT U.S. 260 , 265 (2012)
RITA 7. UNITED STATES 551 U.S. 338

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

|j] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
ft reported at fourth ctrciitt cnroff&ffi. atw>eat.s. ■
> or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
HO reported at kastfkk t}tbtrtut cottht worth c.arot.twa
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

c

a

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix —m to the petition and is
[ } reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix m to the petition and is
[■ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_ATt«nsT ly ' >0
"" \
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________________ , and a copy of the
order denying rehearing appears at Appendix
HO An extension of time to file the petition for a writ of certiorari was granted
to and including augds-i frgn, 20 2D (date) on attgosi
(date)
in Application No.__ A______
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
---------- ;-------------------- , and a copy of the order denying rehearing
appears at Appendix. HA
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including________
(date) on
(date) in
Application No.__ A__ sa
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
liiet first Step Act, 404, under the section 404, 18/1 crack cocaine disparity
constitutionality congress provision retroactive due process lair sentencing act
refona< Falx Sentencing Act Motion 3582—C—2 statute modification. As of today
section 404 any person sentenced before August 3rd, 2010 is nor? entitled to a
1QG/1 now to 18/1 also allows resentencing to a statutory range to 5 to 40 years,
not ten to life anymore with, the new change of law untfer the First Step Act!
My criminal history now shows a level 32-section-2 97 months to 121 months, I have
already done 132 months in prison, this is "wrong” imprisonment under this statutory
range under this provision involving my sentencing!

STATEMENT OF THE CASE
inje to retroactive due process under the Fair Sentencing Act 404, my P.S.R.
shows I do qualify for the Fair Sentencing Act, I was sentenced before August 3rd,
2010, my sentencing date was July 9th, 2009, so X am entitled to immediate release I
I have no career offender statutes or guns statutes or violence* zero points as
we!l for non-violence. My partial transcript shows that I am not a dangerous
felon, my P.S.R. shows that I should have been out of prison taro years ago. I was
not ever sentenced under the 18/1 crack disapxity, December 21st, 2018 congress passed the
provision 1S/1 from 100/1, X am entitled to immediate release 1 My public defender
filed this motion 3582-0-2-with, support "Katherine Shea" shewing the court on May
29th, 2019 that X do qualify for the First Step Act 2018, December 1st.

/

REASONS FOR GRANTING THE PETITION

Reasons for granting this petition due to stature modification and rea^y
disparity that currently scheduled retroactive due process under the Fair Ro-nii-PTin-iTig Ac.'t
Reform, First Step Act. The nature under congress provision now call for Tfafr>pg«
Corpus due process clause under the Fifth Amendment failure to rule on a judgement.
This is also a civil code 1291—final decisions of a district court chapter 83. tkj»
lower courts failure to enter a judgement so therefore I am being held in confinement
without the court exercise any review of the law on the record, this shows racism.
Sut my reasons for granting this petition, crack disparity have changed and 1 have
never been sentenced to 18/1 for the crack, disparity. I already had a commuted:
sentence, executive grant of clemency , January 17, 201? that change my sentence to a ..
career offender that I dent qualify fox, I am not a career offender, 188 months ray
case has been long-ignored, the racist and ignoring of the law of the land, legislation
have made the First Step retroactive, I was supposed to be out of prison two years
ago under the 18/1 and two level reduction 782 and 3582-C-2 motioa my sentence
calls for immediate release from the highest "court*1, Supreme Court, Also
acknowledge that a judicial complaint under 28 13.S.C. § 351 of misconduct was filed
against my sentencing Judge James Dover, case number: 04-19-90082, was filed several
times the last judicial complaint was May2nd, 2019 in the appeal court and was
forwarded to an..appropriate Judge for action. Ky sentencing Judge wont
follow due process involving constitutional duties of the law. Obstruction of justice
and conflict of interest and misrepresentation by my sentencing Judge r»»»!a-?Tig my
release from prisonlli.

Ky conclusion for the writ of certiorari should be granted, I am being
overimprrsoned, the / 82 two level reduction and the 18/1 crack amendment section
404 First Step Act authorizes a lower sentence in my case, liy P.S.R. stows that the
U.S. probation filed for the two level reduction as well as the and was granted under
the appeals courts and sent back to the District Court for Resentencing by three
appeals Judges, Mbtz, King and Wynn by the motion appeal by leave in forma pauperis,
my Judge James Dever XXI showed racism with denying* the motion from the appeals
courts under 782 3582-C-2 Motion two level reduction, this is why I should be granted
this motion. I was supposed to have been out of prison two years ago nnder the
Fair Sentencing Act with immediate release.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
RENTA RENTA REDD

Date: _ M3 IS 2-tt 20

